                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A13030041                                                                        Page 1 of 1


                 NSF OIG received an allegation of plagiarism in an NSF proposa1. 1 Our analysis
         identified allegedly copied text from one source.

                 We contacted the Subject2 regarding the allegation. Based on his response, we
         determined the source's author3 had contributed to the preparation of the proposal. However, the
         source's author is neither listed as a collaborator nor author of the proposal. In addition, though
         the Subject did list this source in the reference section, he did not properly cite to that reference
         in the body of the proposal near the copied text.

                 We sent the Subject a letter reminding him ofhis responsibility give proper attribution to
         all collaborators and to correctly cite material included in his proposals. Accordingly, this case
         is closed with no further action taken.




NSF OIG Form 4 (11/02)
